                                    i                                         1



                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM                                    Il

                                                                                                 I

Case Number: 1-03070028                                                                    Page 1 of 1



        An investigation was initiated to determine whether NSF funds were affected by financial1
        mismanagement in a school district1as reported in an A-133 audit and newspaper article2 in
        2002.

        Our office contacted the superintendent of the school district3to discuss the A-133 audit findings
        and briefly the reports in the newspaper. The superintendent assured this office that the
        reportable conditions in the A-133 had no impact on the NSF program. The superintendent went
        on to explain that the monies awarded by NSF are not maintained or budgeted at the school level.
                                                                                                    4
        Our office requested and received the A-133 single audit report for FY2002 as well as FY2003.
        The reports have been reviewed and it is our conclusion that the mismanagement reported in the
        A- 133 report and the newspaper did not involve NSF monies. Accordingly, this case is closed.



                                                                                                       1




            I




            I
            I
            I




                I
                1
         ' redacted
         * redacted
           redacted                                                                                        I


                                                                                                           I
NSF OIG Form 2 (11/02)
